audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Montgomery County Consortium, Pennsylvania

GR-70-98-003
March 1998

Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Montgomery County Consortium (the Consortium). The Consortium (which includes 44 police department and law enforcement agencies) received a grant of $1,466,595 to purchase equipment in order to redeploy about 270 officer full-time equivalents (FTEs) under the COPS Making Officer Redeployment Effective (MORE) 1995 program. The Consortium purchased the equipment with the intent to enhance community policing efforts. 

The Consortium charged costs related to the purchase of mobile data terminals (MDT) to the grant as provided in the grant award. However, the Consortium did not track the redeployment of officers awarded under the grant; therefore, we were unable to determine whether the required number of 270 FTEs were redeployed into community policing as required by the grant. Thus, we question $1,418,996 of federal funds spent on the MORE grant. In addition, local matching funds of $6,825 for the MORE grant were from funds already budgeted for law enforcement. The grant requires that matching funds should be allocated from funds not already budgeted for law enforcement. 

#####